U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Eddie Houston, Jr. v. United States, No. 20-1479
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19, 2021.
The government’s response is now due, after one extension, on June 21, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 21, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1479
HOUSTON, EDDIE JR.
USA

YAIRA DUBIN
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10036
212-728-5946
JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 SAND HILL ROAD
MENLO PARK, CA 94025
650-473-2633
JLFISHER@OMM.COM
SMITA GHOSH
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST. NW
STE. 501
WASHINGTON, DC 20036
202-296-6889
SMITA@THEUSCONSTITUTION.ORG
BRIANNA FULLER MIRCHEFF
DEPUTY FEDERAL PUBLIC DEFENDER
321 EAST 2ND STREET
LOS ANGELES, CA 90012-4202
213-894-4408
BRIANNA_MIRCHEFF@FD.ORG
213-894-0081(Fax)

DAVID M. PORTER
ASSISTANT FEDERAL DEFENDER
801 I STREET, 3RD FLOOR
SACRAMENTO, CA 95814
916-498-5700
DAVID_PORTER@FD.ORG

